July 14, 2000


RICHARD J. STRASSER
ACTING, CHIEF FINANCIAL OFFICER
 AND EXECUTIVE VICE PRESIDENT

ALLEN R. KANE
CHIEF MARKETING OFFICER
 AND SENIOR VICE PRESIDENT

CLARENCE E. LEWIS JR.
CHIEF OPERATING OFFICER
 AND EXECUTIVE VICE PRESIDENT


SUBJECT:        Transmittal of Audit Report on the Revenue Assurance Process (Report
                Number AC-AR-00-003)

This report presents the results of our audit of the Postal Service’s revenue assurance
process (Project Number 00PR005AC000), which was conducted in response to a
congressional request. Our objectives were to determine whether the revenue
assurance process treated mailers fairly, the process was meeting its objectives, and
Postal Service corrective actions were responsive to mailers’ concerns.

The audit disclosed that the revenue assurance process was not effective in meeting its
objectives in that the Postal Service had treated mailers unfairly in the past, and that
the Postal Service’s corrective actions, while demonstrating a willingness to address
mailers’ concerns, did not fully address all of the issues raised by mailers. This report
provided ten recommendations to further improve the revenue assurance process.
Management agreed with eight of the ten recommendations to improve the revenue
assurance process, however, two recommendations remain unresolved and will be
addressed through the resolution process. Management’s comments, in their entirety,
are included in the Appendix of this report.
We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions, please contact Robert L. Emmons, deputy assistant
inspector general, Business Operations, at (703) 248-2430 or me at (703) 248-2300.



Ronald K. Stith
Acting Assistant Inspector General
 for Business Operations

Attachment

cc: John J. Sadler
    Jayne E. Schwarz
    Sherry L. Suggs
    Angelo Wider
    John R. Gunnels
Revenue Assurance Process                          AC-AR-00-003



                            TABLE OF CONTENTS
Part I

Executive Summary                                      i

Part II

Introduction                                           1

   Background                                          1
   Objectives, Scope, and Methodology                  2

Audit Results                                          4

   Fair Treatment of Mailers                           4
     Timeliness of Assessments                         4
     Accuracy of Postal Service Guidance               5
     Communication with Mailers                        6
     Monetary Goal Perception                          6
     Dispute Discussion                                7
     Recommendations                                   7
     Management’s Comments                             7
     Evaluation of Management’s Comments               8

   Effectiveness of Revenue Assurance Process        10
     Balance Between Prevention and Detection        10
     Analysis of Revenue Deficiencies                11
     District Revenue Threshold                      12
     Recommendations                                 12
     Management’s Comments                           12
     Evaluation of Management’s Comments             13

   Adequacy of Postal Service Corrective Actions     15
     Timeliness of Assessments                       15
     Accuracy of Postal Service Guidance             16
     Communication with Mailers                      16
     Monetary Goal Perception                        17
     Mailer Appeal Rights                            17
     Implementation of Initiatives                   17
     Recommendations                                 18
     Management’s Comments                           18
     Evaluation of Management’s Comments             18

Appendix. Management’s Comments                      19
Revenue Assurance Process                                                       AC-AR-00-003



                                EXECUTIVE SUMMARY
Introduction                In response to a congressional request, the Office of
                            Inspector General (OIG) initiated an audit to determine the
                            validity of mailers’ concerns about the identification,
                            adjudication and collection of revenue deficiencies. These
                            concerns, which were expressed in a letter to the
                            postmaster general, alleged unfair treatment, ambiguous
                            and inconsistent information about mail preparation
                            standards, and the lack of constructive cooperation and
                            attention to solving problems before they occur.
                            Additionally, government mailers were concerned about
                            untimely and inaccurate revenue deficiency billings.

                            Postal Service management has taken several steps to
                            educate employees and mailers about the revenue
                            assurance process. During fiscal year (FY) 1999, the Office
                            of Finance, Revenue Assurance:

                            •   Produced a revenue assurance video.
                            •   Cochaired Postal Service/industry team.
                            •   Established cross-functional teams.
                            •   Developed a website (RA.USPS.GOV).

                            In addition, the manager, Revenue Assurance made
                            presentations to 22 mailers and mailing associations that
                            represent hundreds of mailers about the revenue assurance
                            process. Through the Mailers’ Technical Advisory
                            Committee, the Postal Service has been making an effort to
                            address the concerns of the mailers as well as educate the
                            mailers about postal standards and operations.

                            In January 2000, the Postal Service launched several
                            initiatives to improve working relationships with its mailing
                            partners, correct deficiencies before they occur, and ensure
                            more consistent treatment of mailers. The Postal Service
                            also took additional steps to address the concerns of
                            government mailers.

                            To address mailer concerns and the Postal Service’s
                            response to these concerns, we determined whether (1) the
                            revenue assurance process treated mailers fairly, (2) the
                            process was meeting its objectives, and (3) corrective
                            actions taken by the Postal Service adequately addressed
                            mailers’ concerns.




                                              i
Revenue Assurance Process                                                        AC-AR-00-003




Results in Brief            Our audit disclosed that the Postal Service has treated
                            mailers unfairly in the past. We found that revenue
                            deficiency assessments were not timely, mailers did not
                            receive advance notice of deficiencies, and deficiencies
                            assessed were sometimes attributable to incorrect
                            information given by business mail entry personnel at the
                            time of mail acceptance. Further, mailers perceived that the
                            Postal Service encouraged analysts to assess deficiencies
                            through the use of monetary goals, and that the revenue
                            assurance process did not provide mailers with sufficient
                            opportunities to challenge Postal Service assessments.

                            Unfair treatment occurred because postal policy permitted
                            assessments of postage deficiencies up to two years after
                            mail acceptance, revenue assurance analysts were
                            discouraged from contacting recipients of revenue
                            deficiency notices, and acceptance personnel were not fully
                            knowledgeable of overly complex rate standards. In
                            addition, mailers were not given the opportunity to challenge
                            deficiency assessments because discussions with the
                            Postal Service did not occur until the revenue collection
                            phase of the process.

                            The revenue assurance process did not balance revenue
                            collection goals with preventing and correcting deficiencies.
                            The organizational structure and financial incentives also
                            contributed to the imbalance. Sources and trends of
                            deficiencies could not be accurately identified and analyzed,
                            and substantial resources were devoted to the collection of
                            immaterial amounts of postage. Further, the Postal Service
                            lacked a comprehensive management information system
                            for the revenue assurance process, reliable revenue
                            deficiency data, and thresholds for assessing deficiencies.

                            In January 2000, the Postal Service outlined several
                            initiatives to resolve issues raised by mailers about the
                            revenue assurance process. It also took additional steps to
                            address billing concerns expressed by government mailers.
                            While these efforts demonstrated a willingness to address
                            mailers’ concerns, they did not fully address all of the issues
                            raised by mailers. Additionally, the Postal Service has not
                            finalized action plans or developed guidance for
                            implementing these initiatives.




                                              ii
Revenue Assurance Process                                                       AC-AR-00-003



                            The revenue assurance process is an important tool for
                            protecting postal monies. However, a balanced approach
                            that includes early identification and correction of problems
                            would help ensure postage due the Postal Service is paid
                            and reduce expenditures for collection activities.

Summary of                  To ensure mailers are treated fairly, we recommend the
Recommendations             chief financial officer and executive vice president, in
                            coordination with the chief marketing officer and senior vice
                            president and other appropriate officials, ensure that
                            postmasters and other staff who assist mailers are properly
                            trained in business mail preparation standards. We also
                            recommend the period for assessing deficiencies be
                            reduced, mailers be given the opportunity to correct mailing
                            practices prior to the assessment of revenue deficiencies,
                            and the Postal Service communicate that monetary goals
                            have not been established for the revenue assurance
                            process.

                            To improve the effectiveness of the revenue assurance
                            process, we recommend the chief financial officer and
                            executive vice president work with the vice presidents of
                            Area Operations to establish a strategy to better balance
                            deficiency prevention and revenue collection, develop a
                            comprehensive management information system, and
                            determine a threshold for pursuing deficiencies.

                            Finally, we recommend that in implementing its
                            January 2000 initiatives, the Postal Service quickly develop
                            action plans, ensure the plans address the issues identified
                            in this report, and issue final guidance that communicates
                            revised procedures to mailers and postal employees.

Summary of                  Management generally agreed with our findings and
Management’s                recommendations. They indicated that they would, provide
Comments                    mail acceptance training for both new and current
                            employees and provide mailers with a notice of problems
                            and recommended remedies. Management also stated that
                            they would conduct a study to determine a dollar threshold
                            for pursuing deficiencies, and issue revised Management
                            Instruction on revenue deficiencies by the second quarter of
                            FY 2001.




                                              iii
Revenue Assurance Process                                                        AC-AR-00-003




                            Management disagreed with our recommendation to realign
                            the revenue assurance reporting structure as part of an
                            overall strategy to balance collection with prevention and
                            collection. They believe that the various processes outlined
                            in this report will address this issue. In addition,
                            management disagreed with our recommendation to
                            develop a comprehensive management information system.
                            They stated that the Postal Service already has the
                            following systems in place: Permit, Revenue Assurance
                            WEB page, and the Standard Field Accounting System.
                            Management also stated that integrating these systems
                            would be too expensive. Management’s comments, in their
                            entirety, are included in the Appendix of this report.

Overall Evaluation of       Management’s comments were generally responsive to our
Management’s                findings and recommendations. However, we disagree with
Comments                    management’s assertion that the implementation of the
                            various processes in this report will address the issue of
                            balancing revenue collection with prevention. We do not
                            believe that management has presented a strategy that
                            balances revenue collection with prevention. Until such a
                            strategy is established, we believe there is a significant risk
                            that the issues identified in this report will continue.
                            Consequently, we view the disagreement on this
                            recommendation as unresolved.

                            In addition, we disagree that the Permit System, the
                            Revenue Assurance WEB page, and the Standard Field
                            Accounting System track and analyze revenue deficiencies
                            effectively. Although these systems are in place, we believe
                            they are fragmented and not used to analyze trends and
                            identify systemic issues throughout the Postal Service. We
                            recognize that implementing an integrated system may be
                            expensive. However, in our opinion the revenue assurance
                            process would be more cost effective with a system which
                            could track causes and allow managers the ability to identify
                            the systemic issues throughout the Postal Service. We
                            view the disagreement on this recommendation as
                            unresolved.




                                              iv
Revenue Assurance Process                                                         AC-AR-00-003



                                    INTRODUCTION
Background                  The revenue assurance process ensures the collection of
                            postage and fees due the Postal Service for postal products
                            and/or services rendered. Prior to the establishment of the
                            Revenue Assurance Group in 1997, the Inspection Service
                            performed revenue audits. Since its inception in 1997, the
                            Postal Service’s chief financial officer and executive vice
                            president has managed the revenue assurance process,
                            which consists of the identification, adjudication, and
                            collection of deficiencies.

                            Revenue deficiencies are identified at the point of entry or
                            after the mail has been processed and delivered, and are
                            generally reported to either the postmaster or appropriate
                            manager of Business Mail Entry. After a deficiency is
                            reported, the postmaster or manager of Business Mail Entry
                            notifies the mailer by letter of the decision to collect a
                            revenue deficiency, in accordance with the September 1999
                            management instruction for Assessing and Collecting
                            Deficiencies in Postage or Fees. A copy of the notification
                            letter is sent to the district finance manager, who records
                            the revenue deficiency in the general ledger and on the
                            district revenue deficiency log.

                            After receiving the notice of deficiency, the mailer can either
                            pay the deficiency or appeal it to the rates and classification
                            service center for adjudication. In cases where deficiencies
                            are identified by the rates and classification service center
                            or related to a nonprofit mailing, mailers can be appealed to
                            the manager of Mail Preparation and Standards.

                            If the deficiency is upheld by a rates and classification
                            service center, the case is returned to the district finance
                            office for collection. If a mailer does not pay the deficiency,
                            the district finance manager may forward the information to
                            the legal field office to seek civil action to recover the
                            deficiency.




                                              1
Revenue Assurance Process                                                                             AC-AR-00-003




Objectives, Scope                  The objectives of our audit were to determine whether the
and Methodology                    revenue assurance process treated mailers fairly, (2) the
                                   process was meeting its objectives, and (3) corrective
                                   actions taken by the Postal Service adequately addressed
                                   mailers’ concerns.

                                   To determine whether the revenue assurance process
                                   treated mailers fairly, we judgmentally selected and
                                   interviewed representatives of six mailing associations that
                                   represented 5030 mailers. These included the National
                                   Newspaper Association, PostalCom, the Magazine
                                   Publishers Association, and the Alliance of Nonprofit
                                   Mailers. We also judgmentally selected and interviewed six
                                   mailers and five Postal Service account representatives. To
                                   identify the concerns of government mailers, we interviewed
                                   a representative from the General Services Administration’s
                                   Office of Governmentwide Policy. We compared
                                   information received from these interviews with revenue
                                   assurance procedures.

                                   To determine if the process was meeting its objectives, we
                                   reviewed the revenue assurance mission statement and
                                   charter. We surveyed all 117 revenue assurance analysts
                                   and coordinators, and received responses from 111. We
                                   also interviewed selected managers responsible for revenue
                                   assurance, mail preparation and standards, business mail
                                   entry, and marketing technology and channel management.
                                   We requested district revenue deficiency logs1 from all 85
                                   districts for FY 2000 and examined all 71 logs that were
                                   provided to determine their completeness and accuracy.
                                   Finally, we reviewed case management reports from two of
                                   the five rates and classification service centers.

                                   To determine if corrective actions taken by the Postal
                                   Service adequately addressed concerns raised by mailers,
                                   we reviewed the correspondence, provided by the
                                   congressional office that requested this review, between the
                                   mailers and the Postal Service. In addition, we attended
                                   Mailers Technical Advisory Committee and revenue
                                   assurance planning meetings. We also discussed the

                                   Postal Service’s proposed actions with the chief financial
1
    The September 1999 Management Instruction required the districts to maintain District Revenue Deficiency logs.




                                                           2
Revenue Assurance Process                                                     AC-AR-00-003



                            officer and executive vice president.

                            We conducted our audit between January and April 2000 in
                            accordance with generally accepted government auditing
                            standards, and included tests of internal controls, as were
                            considered necessary under the circumstances.




                                              3
Revenue Assurance Process                                                       AC-AR-00-003



                                   AUDIT RESULTS
Fair Treatment of           Our review disclosed the Postal Service has treated mailers
Mailers                     unfairly in the past. Revenue deficiency assessments were
                            not timely, mailers did not receive advance notice of
                            deficiencies, and deficiencies assessed were often
                            attributable to incorrect information given by business mail
                            entry personnel at the time of mail acceptance. Further,
                            mailers perceived that the Postal Service encouraged
                            analysts to assess deficiencies through the use of monetary
                            goals, and that the revenue assurance process did not
                            provide mailers with opportunities to challenge Postal
                            Service assessments.

                            Unfair treatment occurred because postal policy permitted
                            assessments of postage deficiencies up to two years after
                            mail acceptance, revenue assurance analysts were
                            discouraged from contacting recipients of revenue
                            deficiency notices, and acceptance personnel were not fully
                            knowledgeable of overly complex rate standards. Also,
                            mailers were not given the opportunity to challenge
                            deficiency assessments because discussions with the
                            Postal Service did not occur until the revenue collection
                            phase of the process.

                            Consequently, assessments of back postage were
                            sometimes unreasonable, creating financial hardships for
                            mailers, and did not allow mailers to address problems that
                            caused deficiencies in a timely manner. This type of
                            treatment undermines the Postal Service’s Voice of the
                            Customer goal to provide mailers consistent and accurate
                            service.

Timeliness of               According to individual mailers and mailing association
Assessments                 representatives, the Postal Service assessed postage
                            deficiencies as much as two years after mail acceptance.
                            For example, one mailer received a deficiency notice in
                            1999 for a violation that occurred in 1998. After the mailer
                            paid the 1998 violation and believed his account was in
                            good standing, the Postal Service issued the mailer a
                            deficiency notice for a 1997 violation. In another example,
                            a government mailer was assessed a two-year deficiency
                            although the mailer had worked closely with Postal Service
                            representatives to prepare its mail.




                                              4
Revenue Assurance Process                                                      AC-AR-00-003



                            Untimely assessments sometimes created financial
                            hardships for mailers, who had to negotiate a payment
                            schedule to pay deficiencies. This was especially
                            problematic for government mailers who received deficiency
                            notices after obligating all prior-year funds.

                            Our review disclosed that untimely assessments were
                            attributable to postal policy that allowed employees to
                            consider the previous 24 months in assessing deficiencies.
                            This policy emphasized detection rather than prevention,
                            reducing the incentive to identify problems and collect
                            revenues at the time service was rendered.

                            Although the Postal Service is required by government
                            regulations to collect all monies due, it competed with other
                            companies that did not assess deficiencies after the point of
                            acceptance. Such a policy was perceived by mailers as
                            unfair and costly, and could hinder the Postal Service’s
                            ability to remain competitive.

Accuracy of Postal          Postal personnel frequently gave mailers inaccurate or
Service Guidance            inconsistent guidance about mail preparation procedures.
                            Four out of the six mailing association representatives
                            interviewed indicated business mail entry personnel
                            frequently gave inaccurate and inconsistent guidance. For
                            example, one mailer told us two revenue deficiencies could
                            have been avoided if an updated verification certificate had
                            been submitted. Postal Service personnel accepted the
                            mail without a certificate because they were not aware of
                            the requirement that certificates be updated every 90 days.
                            Further, one mailing association official stated his
                            organization knew more about business mail regulations
                            than many of the postmasters, and had provided training to
                            several postmasters.

                            Postal managers and analysts we surveyed indicated that
                            postal employees were not fully knowledgeable of business
                            mail entry regulations. They attributed this lack of
                            knowledge to an overly complex rate structure and the




                                              5
Revenue Assurance Process                                                        AC-AR-00-003




                            absence of continuous training. By providing inconsistent
                            and inaccurate information, the Postal Service assessed
                            mailers with revenue deficiencies that could have been
                            avoided. Not only does this impact the Postal Service’s
                            ability to develop partnerships with its mailers, but also such
                            actions did not support the Postal Service’s Voice of the
                            Customer goal to provide consistent and accurate service.

Communication with          The Postal Service did not consistently inform mailers of
Mailers                     revenue deficiencies prior to assessment. Interviews with
                            mailers indicated that some were given advance notice of
                            deficiencies, while others were not. This was confirmed
                            through internal postal correspondence. For example,
                            correspondence from the Great Lakes Area detailed regular
                            contact with mailers prior to revenue deficiency
                            assessments, while headquarters correspondence
                            emphasized revenue assurance analysts should not contact
                            mailers.

                            Inconsistent communication occurred because the Postal
                            Service lacked a written policy on communicating with
                            mailers prior to deficiency assessments. As a result, each
                            area determined the type and extent of communication with
                            mailers. Consequently, some mailers were not afforded the
                            opportunity to correct the problem before the deficiency was
                            assessed. Communicating with mailers prior to
                            assessments ensures they understand and correct
                            problems to prevent their recurrence.

Monetary Goal               Mailers perceived revenue assurance analysts were
Perception                  encouraged and rewarded for assessing deficiencies and
                            that the Postal Service used monetary goals to evaluate the
                            performance of revenue assurance analysts. Revenue
                            assurance analysts surveyed shared the perception of
                            mailers.

                            The chief financial officer and executive vice president
                            confirmed the monetary goal perception existed and
                            explained that it was based on a meeting attended by
                            revenue assurance analysts where a senior official
                            discussed a revenue challenge of $100 million dollars.
                            However, the chief financial officer and executive vice
                            president emphasized a monetary goal was not established
                            or communicated to revenue assurance analysts. This




                                              6
Revenue Assurance Process                                                        AC-AR-00-003



                            perception, if allowed to continue, could negatively impact
                            the partnerships the Postal Service is trying to establish with
                            its mailers.

Dispute Discussion          Mailers and mailing association representatives told us they
                            were not given the opportunity to challenge the Postal
                            Service’s assessments of revenue deficiencies. They
                            indicated there were often mitigating circumstances that
                            needed to be considered in assigning responsibility for the
                            deficiency. For example, mailers were not given the
                            opportunity to disclaim responsibility for revenue
                            deficiencies that were caused by incorrect advice from
                            postal personnel assisting in mail preparation and
                            acceptance.

                            Mailers were not given the opportunity to challenge
                            deficiency assessments because discussions with the
                            Postal Service occurred during the revenue collection phase
                            of the process. As a result, mailers often met with finance
                            managers who focused on collecting and scheduling
                            payments. The lack of opportunity for mailers to be heard
                            could impact the cooperative effort and partnerships
                            between the Postal Service and its mailers.

Recommendation              We recommend that the chief financial officer and executive
                            vice president in coordination with the chief marketing
                            officer and senior vice president, and other appropriate
                            officials:

                            1. Ensure postmasters and all staff assisting mailers are
                               properly trained on business mail preparation standards.

Management’s                Management agreed with our finding and recommendation
Comments                    and indicated that they have begun training for both new
                            and current employees involved in acceptance and
                            mailpiece design through multiple training programs. In
                            addition, management is disseminating information to both
                            postal personnel and mailers to address and improve the
                            acceptance process at postal facilities.




                                              7
Revenue Assurance Process                                                       AC-AR-00-003




Evaluation of               Management’s actions taken are responsive to the
Management’s                recommendation.
Comments

Recommendation              2. Reduce the current 24-month timeframe for assessing
                               postage deficiencies.

Management’s                Management agreed with our finding and recommendation
Comments                    and has initiated a new proactive approach, which provides
                            mailers notice of problems and recommended remedies.
                            The new approach will also allow mailers sufficient time to
                            correct the process prior to any monetary deficiencies being
                            assessed.

Evaluation of               Management’s actions are responsive to the
Management’s                recommendation.
Comments

Recommendation              3. Provide mailers the opportunity to correct mailing
                               practices prior to assessing revenue deficiencies.

Management’s                Management agreed with our finding and recommendation
Comments                    and stated that they will provide mailers notice of problems
                            and recommended remedies. The Postal Service will also
                            allow mailers sufficient time to correct the process prior to
                            any monetary deficiencies being assessed.

Evaluation of               Management’s actions are responsive to the
Management’s                recommendation.
Comments

Recommendation              4. Communicate to all field locations and mailers that
                               monetary goals have not been established for the
                               revenue assurance process.

Management’s                Management agreed with our finding and stated that this
Comments                    recommendation had been completed via teleconference
                            on January 12 between the chief finance officer and all
                            managers of Finance and Revenue Assurance
                            coordinators. In addition, it was addressed to the mailers at
                            a Mailers and Technical Advisory Committee meeting.




                                              8
Revenue Assurance Process                                                    AC-AR-00-003




Evaluation of               Although communication was made on January 12, 2000,
Management’s                audit indicated that in February 2000 some Revenue
Comments                    Assurance analysts were unaware that no monetary goals
                            existed. Management should consider communicating
                            again that monetary goals do not exist for the revenue
                            assurance process. We will not pursue resolution on this
                            recommendation at this time.




                                             9
Revenue Assurance Process                                                       AC-AR-00-003




Effectiveness of            The revenue assurance process did not balance revenue
Revenue Assurance           collection goals with goals for preventing and correcting
Process                     deficiencies, causes of deficiencies could not be identified
                            and analyzed, and substantial resources were devoted to
                            the collection of immaterial amounts of postage.

                            The process was not balanced because it focused on
                            revenue collection, no formal role or responsibility for
                            revenue assurance was assigned to the business mail entry
                            function, and the Postal Service lacked a comprehensive
                            strategy encompassing both prevention and detection. The
                            causes of deficiencies could not be identified and analyzed
                            because the Postal Service lacked a comprehensive
                            management information system and reliable revenue
                            deficiency data. Immaterial amounts of postage were also
                            collected because no threshold had been established for
                            assessing deficiencies.

                            A more balanced and focused approach would allow the
                            Postal Service to identify and correct problems early in the
                            process. Early identification and correction of problems
                            would also reduce the cost of assessing and collecting
                            revenue deficiencies.

Balance Between             The revenue assurance process did not achieve its
Prevention and              intended purpose because it focused primarily on collecting
Detection                   revenue and not on correcting the underlying causes of
                            deficiencies. The management instruction on Assessing
                            and Collecting Deficiencies in Postage or Fees states
                            revenue deficiencies must not only be collected, but their
                            causes must be determined and corrected.

                            Because the revenue assurance function was managed by
                            finance, the process had a revenue collection focus.
                            Revenue assurance analysts reported to the area or district
                            finance managers, and were primarily responsible for
                            identifying and assessing revenue deficiencies. Further, a
                            formal role or responsibility for revenue assurance was not
                            assigned to business mail entry personnel. Consequently,
                            business mail entry personnel did not focus on preventing
                            deficiencies through early detection.

                            The Postal Service also did not have a comprehensive
                            strategy for preventing and detecting revenue deficiencies.




                                             10
Revenue Assurance Process                                                              AC-AR-00-003



                                   As a result, there was no detailed plan for preventing over
                                              2
                                   $84 million in revenue deficiencies at the point of entry.

                                   Greater emphasis on prevention could reduce some of the
                                   Postal Service’s costs in revenue collection, increase
                                   revenue, and convey to mailers the Postal Service’s interest
                                   in constructively working with mailers to solve problems
                                   before they occur.

Analysis of Revenue                The Postal Service could not identify the causes of revenue
Deficiencies                       deficiencies to prevent recurrence. Specifically, the Postal
                                   Service did not have an integrated management information
                                   system for monitoring and analyzing revenue deficiencies.
                                   As a result, information on revenue deficiencies was
                                   maintained manually by each field location. Consequently,
                                   managers could not share and analyze data to determine
                                   the underlying causes of deficiencies.

                                   An automated information system would allow managers to
                                   analyze trends in districts and to identify systemic issues
                                   throughout the Postal Service. The chief financial officer
                                   and executive vice president also told us that an integrated
                                   information system would enhance the effectiveness of the
                                   revenue assurance process.

                                   Our review also disclosed that deficiency logs used to track
                                   postage or fees due were incomplete. The log tracks nine
                                   elements of information for each mailing deficiency. We
                                   reviewed 71 logs and found 31 logs were missing one to six
                                   elements. Entries for the mailer name and address, date,
                                   type, or amount of deficiency were incomplete and
                                   inaccurate. For example, some postal personnel recorded
                                   the dollar amount of deficiencies as percentages and others
                                   listed the Postal Service’s address instead of the mailer’s
                                   address.

                                   District revenue deficiency logs were incomplete and
                                   inaccurate because the Postal Service did not have
                                   adequate management controls. There was no




2
    Revenue assurance analysts during FY 1999 identified approximately $84 million.




                                                         11
Revenue Assurance Process                                                                           AC-AR-00-003




                                 standardized log format, and detailed instructions were not
                                 available that addressed each element of information. As a
                                 result, deficiency logs could not be used to make
                                 management decisions.

District Revenue                 The Postal Service pursued small revenue deficiencies that
Threshold                        cost more to collect than the deficiency itself. For example,
                                 our review of postage deficiencies recorded in the 71 district
                                 revenue deficiency logs disclosed that 44 percent3 were
                                 below $500 and represented less than one percent of the
                                 total revenue from deficiencies identified on the logs. In
                                 some cases, as little as $.08 was recorded and as little as
                                 $1.86 was collected.

                                 Immaterial deficiencies were pursued because postal policy
                                 requires employees to collect all monies due the Postal
                                 Service. However, the Postal Service should reevaluate
                                 this policy considering the costs of collecting small
                                 deficiencies. Establishing a threshold for collecting revenue
                                 deficiencies would allow the Postal Service to reduce costs
                                 and free up resources to prevent revenue deficiencies.

Recommendation                   We recommend the chief financial officer and executive
                                 vice president work with the chief marketing officer and
                                 senior vice president and the chief operating officer and
                                 executive vice president to:

                                 5. Establish a strategy that balances revenue collection
                                    with prevention. The strategy should:

                                          •   Realign the revenue assurance reporting
                                              structure within the districts to focus on identifying
                                              and correcting the causes of deficiencies.

                                          •   Coordinate the efforts of bulk mail acceptance
                                              and revenue assurance personnel in detecting
                                              and preventing revenue deficiencies.

Management’s                     Management agreed with our recommendation to
Comments                         coordinate the efforts of bulk mail acceptance and revenue
                                 assurance personnel. However management did not agree

3
Forty-four percent represents 635 out of 1,452 recorded postage deficiencies recorded in 71 logs.




                                                        12
Revenue Assurance Process                                                      AC-AR-00-003



                            to realign the revenue assurance reporting structure within
                            the districts to focus on identifying and correcting the
                            causes of deficiencies.

Evaluation of               Management’s comments were not responsive to the intent
Management’s                of our recommendation. Although management agreed that
Comments                    efforts between bulk mail acceptance and revenue
                            assurance should be coordinated; they have not presented
                            a strategy that balances revenue collection with prevention.
                            Until such a strategy is established the issues identified in
                            this report will continue to occur.

                            We view the disagreement on this recommendation as
                            unresolved.

Recommendation              6. Develop a comprehensive management information
                               system that allows managers at all levels to track and
                               analyze revenue deficiencies.

Management’s                Management did not agree with our recommendation to
Comments                    develop a comprehensive management information system.
                            They stated there are three systems in place and that
                            developing an integrated system would be too expensive.

Evaluation of               While the Permit System, the Revenue Assurance WEB
Management’s                page, and the Standard Field Accounting System are in
Comments                    place, these tools are not used to analyze trends and
                            identify systemic issues throughout the Postal Service. We
                            recognize that implementing an integrated system may be
                            expensive, however the revenue assurance process would
                            be more cost effective with a system which could track
                            causes and allow managers the ability to identify the
                            systemic issues throughout the Postal Service.

                            We view the disagreement on this recommendation as
                            unresolved.

Recommendation              7. Perform a cost benefit analysis to determine a dollar
                               threshold for pursuing deficiencies.

Management’s                Management agreed with our recommendation and will
Comments                    conduct a study by the end of Postal Quarter I, FY 2001.




                                             13
Revenue Assurance Process                                                   AC-AR-00-003



Evaluation of               Management’s plan to conduct a study to determine a
Management’s                minimum dollar threshold is responsive to our
Comments                    recommendation.




                                            14
Revenue Assurance Process                                                       AC-AR-00-003




Adequacy of Postal          In January 2000, the Postal Service reached an agreement
Service Corrective          with the Mailers Technical Advisory Committee to resolve
Actions                     issues surrounding revenue assurance reviews. This
                            agreement outlined several initiatives that the Postal
                            Service would undertake including:

                               •   A quality charter that would ensure that quality
                                   assurance problems are resolved at the point of
                                   entry.

                               •   Ongoing two-way communications on the process
                                   and feedback on mail quality trends.

                               •   Enhanced training on mail acceptance criterion.

                               •   Continued efforts to standardize and streamline
                                   acceptance, verification, and mail quality review
                                   processes.

                               •   Continuation of the appeals process.

                            According to postal officials, the Postal Service will also be
                            reviewing pending assessed deficiencies and will make final
                            determination based on the initiatives discussed in the
                            January 2000 agreement. The deficiencies will be reviewed
                            at the district level on a case by case basis. Revenue
                            deficiencies will not be pursued in instances where the
                            review determines that there were mitigating circumstances
                            in which the Postal Service contributed to the deficiencies.

                            These initiatives demonstrated the Postal Service’s
                            willingness to address mailers’ concerns; however, they did
                            not fully address all of the issues raised by mailers. In
                            addition the initiatives do not address the responsibility of
                            the mailers to prepare mailings that meet postal standards.
                            Further, the Postal Service needs to finalize plans for
                            implementing these initiatives to avoid misunderstandings
                            with mailers.

Timeliness of               The Postal Service plans to develop evaluation criteria to
Assessments                 standardize the mail quality review process. As part of this
                            effort, postal personnel will communicate with mailers at the
                            earliest phase of the process so that problems can be
                            identified and remedied. Mailers will not be assessed



                                             15
Revenue Assurance Process                                                          AC-AR-00-003



                            deficiencies as part of the notice process; however, if after
                            notice is given and identified problems continue to occur,
                            deficiencies will be assessed.

                            To address government mailer concerns, the Postal Service
                            has taken additional steps to ensure more timely and
                            correct billing, including distributing reconciliation reports to
                            each agency to monitor actual postage due and enhancing
                            system tracking of deficiencies. The Postal Service has
                            also instructed revenue assurance analysts to communicate
                            deficiencies and billing issues to the government mailer
                            coordinator.

                            While the Postal Service’s plan demonstrates a willingness
                            to communicate with mailers early in the process, the Postal
                            Service has not addressed whether it will change its policy
                            regarding the 24-month time period covered by deficiency
                            assessments.

Accuracy of Postal          To address mailers’ concerns about the communication of
Service Guidance            inconsistent and inaccurate information, the Postal Service
                            will focus on enhanced training for postal personnel as well
                            as the mailing community. The Postal Service will also
                            streamline and standardize the acceptance, verification,
                            and mail quality review processes so that they can be more
                            easily understood.

                            While the Postal Service recognized the need for training, it
                            has not identified who will manage this initiative, the
                            intended recipients, and a timeframe for providing the
                            training. The Postal Service also did not address how it
                            intends to ensure that acceptance personnel remain
                            knowledgeable of changes in mail acceptance and
                            preparation requirements.

Communication with          In developing the quality charter for the revenue assurance
Mailers                     process, the Postal Service plans to emphasize
                            communication with mailers at the earliest phase of the
                            process so that problems can be identified and remedied.
                            The Postal Service also will continue two-way
                            communications with its mailing partners through the
                            Mailers Technical Advisory Committee. Through this
                            process the Postal Service will develop quality initiatives,
                            review policies, discuss issues as they arise, and provide
                            mailers feedback on mail quality trends it discovers.




                                              16
Revenue Assurance Process                                                         AC-AR-00-003




                            While this approach addresses formal and informal
                            communications, it is unclear who will be communicating
                            with mailers when deficiencies are identified. Currently,
                            each area determines the type and extent of
                            communication with mailers, which led to inconsistent
                            communication practices in the past.

Monetary Goal               Based on past experience, the Postal Service found that
Perception                  most problems in the revenue assurance area have
                            resulted from policy, training, or communication issues. As
                            a result, the Postal Service will place added emphasis on
                            each of these areas in developing a quality charter for the
                            revenue assurance process. However, the Postal Service
                            has not addressed how it will correct misperceptions that
                            mailers and revenue assurance analysts share regarding
                            monetary goals.

Mailer Appeal Rights        The Postal Service expects the implementation of its
                            initiatives will significantly reduce the number of deficiency
                            assessments and appeals. With a quality charter that
                            emphasizes resolution of problems before they become
                            deficiencies and enhanced communications with mailing
                            partners, mailers will have the opportunity to understand
                            and discuss the factors contributing to deficiencies.

Implementation of           As of the date of this report, the Postal Service had not
Initiatives                 issued action plans or further guidance on its January 2000
                            initiatives. This lack of formal guidance has created
                            concern on the part of the mailers that the Postal Service is
                            not committed to improving the revenue assurance process.
                            According to postal officials, action plans are being
                            developed and should be submitted to the chief financial
                            officer and executive vice president at the beginning of
                            May 2000. If the Postal Service does not finalize its action
                            plans soon, it may risk losing the partnerships it has worked
                            to establish with mailers. Such partnerships are critical to
                            the continued success and future growth of the mail
                            industry.




                                              17
Revenue Assurance Process                                                        AC-AR-00-003




Recommendation              We recommend the chief financial officer and executive
                            vice president and chief marketing officer and senior vice
                            president:

                            8. Finalize action plans for each of the initiatives as soon
                               as possible.

Management’s                Management agreed with our recommendation and plans to
Comments                    have all initiatives completed by Postal Quarter II, FY 2001
                            .
Evaluation of               Management’s comments are responsive to our
Management’s                recommendation.
Comments

Recommendation              9. Ensure plans address all issues identified in this report.

Management’s                Management agreed with our recommendation and will
Comments                    address these issues through initiatives by Postal Quarter II,
                            FY 2001.

Evaluation of               Management’s comments are responsive to our
Management’s                recommendation.
Comments

Recommendation              10. Issue final guidance that communicates revised
                                procedures to mailers and postal employees.

Management’s                Management agreed with our recommendation and plans to
Comments                    issue a letter to the field outlining the new policies and
                            processes in postal Quarter I, FY 2001. In addition,
                            management plans to issue a revised management
                            instruction on revenue deficiencies in postal quarter II,
                            FY 2001.

Evaluation of               Management’s comments are responsive to our
Management’s                recommendation
Comments




                                              18
Revenue Assurance Process                           AC-AR-00-003



                  APPENDIX. MANAGEMENT’S COMMENTS




                                19
Revenue Assurance Process        AC-AR-00-003




                            20
Revenue Assurance Process        AC-AR-00-003




                            21
Revenue Assurance Process        AC-AR-00-003




                            22
Revenue Assurance Process                 AC-AR-00-003




Major Contributors To Abbas Busari
This Report           Monique Colter
                      Holly Engebretsen
                      Laurence Hawkins
                      Rick Hightower
                      Kim Howell
                      Irene Isarasakdi
                      Ernest Osekwe
                      James Reisenweber
                      Pete Schroder
                      Dave Shelley
                      Carla Tate
                      Russ Vroman
                      Lucine Willis




                                    23
